Account Opening Disclosures
Supplement to Credit Card Agreement for VISA Platinum Shared Secured Accounts
Education Credit Union
Interest Rates and Interest Charges Actual
pricing will vary from one cardholder to another

Annual Percentage Rate (APR)
for "Purchases

10.95% based on your credit worthiness.

Annual Percentage Rate (APR)
for Balance Transfers

10.95% based on your credit worthiness.

Annual Percentage Rate
(APR) for Cash Advances

10.95% based on your credit worthiness.

Penalty APR and When it Applies

17.75%
This APR may be applied to all advances for your account if you:
1)

Make a late payment

How Long Will the Penalty APR Apply?: If your APR is increased for this
reason, the Penalty APR will apply until you make six consecutive minimum
payments when due.

How to Avoid Paying
Interest on Purchases
For Credit Card Tips from the
Consumer Financial Protection
Bureau

Fees
Annual Fee
Cash Advance
Transaction Fees
. Foreign Transaction

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on purchases if you pay your entire balance by the due date
each month.
To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at http://www.
consumerfinance.gov/learnmore

None
You will be charged a Cash Advance Fee, per advance, of 2% of
the cash advance amount or $5.00, whichever is greater.

Up to 1% of each transaction in U.S. dollars.

Penalty Fees

.

Late Payment

Up to $25 (If we do not receive your required Minimum Payment within 10 days of
the Payment Due Date, you may be charged a Late Payment Fee of your
Minimum monthly payment or $25, whichever is less.)

.

Returned Payment

$24 (If any payment made on your Account is returned unpaid for any reason, you
will be charged a Returned Payment Fee or the amount equal to your required
Minimum Payment, whichever is less. The Returned Payment Fee will apply when
any payment is returned to us, even if the payment is honored upon
resubmission.)

Other Fees

.

EzPay (telephone
assisted expedited
payment service)

$10

.

Replacement Card

$7.50

.

Rush Card Fee

$50.00 (You will be charged a rush card fee if we have to rush production and
delivery of a new credit card)

.

Retrieval Fee

$2.50 (You will be charged a retrieval fee if we have to retrieve a receipt from a
merchant or VISA on your behalf)

.

Statement Reprint Fee

$2.00 (You will be charged a statement reprint fee for any additional statement
copies you need printed)

Convenience Check

.
.
.

Stop Payment
Copy of Check
Non-Sufficient Funds
(insufficient credit
limit)

$28 per check
$20 per check
$24 per return

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided below.
Truth in Lending Disclosures
COST OF CREDIT: You will pay an INTEREST CHARGE for all advances made against your Account. INTEREST CHARGES for cash advances and balance
transfers begin to accrue on the date of the advance. New purchases will not incur an INTEREST CHARGE on the date they are posted to your Account if you
have paid the Account in full by the Payment Due Date shown on your previous monthly statement, or if there was no previous balance.
The daily periodic rate for all advances made on your Account will be .030000% (10.95% ANNUAL PERCENTAGE RATE (the “Standard Rate”).
The INTEREST CHARGE is determined by applying the applicable daily periodic rate to the Average Daily Balance of your Account for each feature category,
including certain current transactions. Feature categories include purchases, balance transfers, and cash advances. The Average Daily Balance is arrived at by
taking the beginning balance of each feature category each day and adding any new transactions to the balance, except if you have paid your Account in full by
the Payment Due Date shown on the previous monthly statement or there is no previous balance, new purchases are not added to the purchases balance.
Balance transfers may be shown on your statement in the Promotions feature category.

When determining balances, we may combine feature category balances that have the same periodic rate and other INTEREST CHARGE terms. We then
subtract any payments or credits and unpaid INTEREST CHARGES allocated to the feature category balance for the day. This gives us the daily balance for the
feature category. The daily balances for each feature category are then added together and divided by the number of days in the billing cycle. The result is the
Average Daily Balance for each feature category. The periodic INTEREST CHARGE is determined by multiplying each feature category Average Daily Balance
by the number of days in the billing cycle and applying the applicable daily periodic rate to the product. The total INTEREST CHARGE for each statement period
is the sum of the periodic INTEREST CHARGES for each feature category.
lf at any time a required minimum payment is three or more billing cycles past due, the ANNUAL PERCENTAGE RATE for all advances may be increased to a
Penalty Rate daily periodic rate of .048630% (17.75% ANNUAL PERCENTAGE RATE). After the Penalty Rate becomes effective, it will apply both to current
and new balances and it may remain in effect indefinitely. lf your minimum payments are made as required for six (6) consecutive months starting on or after the
first payment due following the Penalty Rate effective date the Standard Rales for your Account will be restored.
No additional INTEREST CHARGES will be imposed on new purchases shown on your statement if the New Balance shown on the statement is paid in full by
the Payment Due Date reflected on the statement. The Payment Due Date is not less than 25 days from the billing cycle closing date shown on your statement.
MILITARY LENDING ACT DISCLOSURE: The following disclosure applies to persons covered by the Military Lending Act-other governmental programs and
laws may also govern or apply to this transaction but are not described in the following disclosure. The following disclosure is required by the Military Lending
Act.
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost
of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an ANNUAL PERCENTAGE RATE of 36 percent. This rate
must include, as applicable to the credit transaction or account: the costs associated with credit insurance premiums; fees for ancillary products sold in
connection with the credit transaction; any application fee charged (other than credit application fees for specified credit transactions or accounts); and any
participation fee charged (other than certain participation fees for a credit card account).
MINIMUM PAYMENT: Minimum payment amount is $18.00 or 3.00% of the outstanding balance, whichever is greater.
The information about the cost of the card described in this application is accurate as of 4/1/2019
. The information may have changed after that date. To
find out what may have changes, call us at (800)687-8144 or write us at Education Credit Union, 4400 W. Interstate 40, Amarillo, Tx 79106-5940.

